intent which can be subtle and less overt. Ordinary
people are at a significant disadvantage when
challenging the misconduct of employers and
institutions because of this informational inequality
contained in their policies that are often inaccessible
to employees. See Ledbetter v. Goodyear Tire & Rubber
Co., 550 U.S. 618 (2007). In the absence of discovery,
it is particularly difficult for civil rights claims to
survive dismissal. The Justices dissenters in Twombly
stated that the Federal Rules’ “relaxed pleading
standards” were intended “not to keep litigants out of
court but rather to keep them in.” 7<i.
Since some courts are already allowing some
discovery before a showing of plausibility, targeted
discovery should be fairly and consistently applied to
all the federal courts at the pleading stage when there
is information asymmetry to allow Plaintiffs to meet
the bar on a level playing field, for meritorious claims
to proceed. In his dissent in Twombly, Justice Stevens
stated “Experience has shown that we cannot expect
the proof of the case to be made through the pleadings,
and that such proof is really not their function” See
Twombly.
CONCLUSION
Petitioner prays that this writ be issued and if
remanded, to the State Court to be fully heard.
. Respectfully submitted,
Susan R. Gokool -pro se
6907 NW 53* St.
Bethany, OK 73008
gokools l@hotmail.com (405)495-9493
August 20, 2019
14

Appendix A
Case No. 18-6093 Filed April 30, 2019
In the United States Court of Appeals
for the Tenth Circuit
Susan Gokool, Plaintiff - Appellant,
v.
Oklahoma City Univ.; Oklahoma City Univ.
School of Law
Defendant(s) - Appellees
Before PHILLIPS MCKAY and O’BRIEN,
Circuit judges.
Susan Gokool, representing herself pro se, appeals
from four orders of the district court issued in
response to motions she filed following this court’s
decision affirming the dismissal of her case for failure
to state a claim. We now affirm those orders.
Nevertheless, ,we deny Oklahoma City University’s
request that we sanction Ms. Gokool for ’filing a
frivolous appeal.
I
Ms. Gokool filed suit against the University in June
2016, making several allegations against the
University and its law school in connection with her
expulsion.1 The University removed the case to
federal court and subsequently filed a motion to
dismiss Ms. Gokool’s first amended complaint for
failure to state a claim. The district court granted the
motion and dismissed Ms. Gokool’s case in December
>

1 Although Ms. Gokool named the University and the law school
as separate entities, the University has informed the court that
the law school is operated by the University and is not its own
entity.
la

2016, and this court affirmed that ruling on appeal.
See Gokool v. Okla. City Univ., 716 F. App’x 815 (10th
Cir. 2017).
After the mandate issued in Ms. Gokool’s first
appeal, she filed a number of motions in the district
court between March and May 2018: (1) a motion
asking the district court judge to recuse himself on the
basis that his 2016 ruling on the motion to dismiss
demonstrated partiality toward the University; (2) a
motion to vacate the district court’s dismissal for
fraud on the court; (3) a motion for reconsideration
filed once the district court had denied those first two
motions; (4) a second motion regarding recusal of the
district court judge, this time addressed to the chief
judge asking him to direct the recusal; (5) a motion to
correct a typographical error in that second recusal
motion, filed after the district court had already
issued an order in response to it; (6) a motion for relief;
and (7) a motion to suspend proceedings in the district
court while Ms. Gokool filed a petition for a writ of
certiorari with the U.S. Supreme Court.
The district court denied Ms. Gokool’s first two
motions because this court had already affirmed the
dismissal of her case and she had “provided no basis
for the Court’s jurisdiction to consider either motion.”
(Appellant’s App. at 369.) The court responded to Ms.
Gokool’s third and fourth motions by issuing an order
for her to withdraw them or to “show cause why her
conduct does not violate Federal Rule of Civil
Procedure 11(b).” (Id. at 387.) The district court
subsequently struck these motions, plus the motion to
correct a typographical error, upon finding that Ms.
Gokool had failed to show that her motions were not
frivolous. The court also stated that it would “strike
any of Plaintiffs future filings in this case, unless she
2a

obtains a licensed attorney who certifies that the
motion is non-frivolous.” (Id. at 413.) The court struck
Ms. Gokool’s last two motions in accordance with this
order. Ms. Gokool appealed •
Ms. Gokool first contends that the district court
erred in denying Her motion for the judge to recuse
himself and her motion to vacate the dismissal of her
case pursuant to Federal Rule of Civil Procedure
60(b)(3) and (d)(3). Although the district court’s stated
reason for denying the 'motions was a belief that it
lacked jurisdiction to consider them, thle Supreme
Court has held that district courts may consider'Rule
60(b) motions filed even after a‘ ruling has been
affirmed on appeal. See Standard Oil Co.1 of Cal. v.
United *; Stcdes,429 ' U.S. ?17) ’ 17-18 (1976).
Nevertheless, ha\Hng reviewed Ms. Gokool’s motions,
we find thiat the arguments they make are
substantially the same as arguments she made in her
first appeal to this court, only reframed as allegations
of fraud on the” court and partiality on the part of the
district’ court judge. Under these-circumstances, we
conclude there is ho need to remand these motions for
further proceedings in the district court: Accordingly,
in the interest of judicial economy and efficiency, we
will' address the merits of Ms. Gokool’s motions.
Rule 60(b)(3) allows a court to relieve a party from a
final judgment that resulted from fraud, and Rule
60(d)(3) recognizes the court’s power to “set aside a
judgment for fraud on the court.” Ms. Gokool’s motion
invoking these4 provisions raises two arguments that
fraud. or fraud'on the court, occurred in this case: (1)
the University’s discussion of Gonzaga University v.
Doe, 536 U.S. 273 (2002), and (2) the University’s
description of Ms. Gokool’s fraud claim.
3a

Regarding the first point, Ms. Gokool claimed the
University had misled the district court and this court
by suggesting that the Supreme Court s decision in
Gonzaga had reversed the Washington Supreme
Court’s conclusion in the underlying case that the
student had presented sufficient evidence of an
implied contract, see Doe v. Gonzaga Univ., 24 P.3d
390, 402-03 (Wash. 2001), reversed on other grounds
by Gonzaga, 536 U.S. at 290—91. Ms. Gokool
acknowledges that the University made the
distinction between the two Gonzaga cases because
she had cited to the U.S. Supreme Court’s opinion as
support for her implied contract claim and the
University wished to clarify that “‘[t]he U.S. Supreme
Court reversed the Washington Supreme Court,
because the University thus engaged in “a wellexecuted planned scheme to deceive the district court
into believing that the highest court decided that
there was not an implied contract between the student
and the university.” (Appellant’s Reply Br. at 4-5.)
Ms. Gokool’s claim is frivolous for numerous
reasons. As an initial matter, Ms. Gokool has now
filed several pages of motions and briefs haggling over
the meaning of two sentences from a footnote in the
University’s motion to dismiss. Moreover, she has not
demonstrated how any deception resulting from those
sentences affected either the district court’s dismissal
of her case or this court’s affirmance of that dismissal.
The district court noted that the Washington
Supreme Court’s decision in Gonzaga had been
reversed on appeal to the U.S. Supreme Court, but
went on to state that, regardless of the reversal, the
Washington decision “seemfed] to only undermine, not
bolster, Ms. Gokool’s claims.” (Appellant’s App.at
218.) Contrary to Ms. Gokool’s contention that the
4a

district court’s observation of the reversal indicated
that it Was deceived, the district'court merely-pointed
out the case’s subsequent history before addressing
Ms. Gokool’s arguments based on it anyway: Simply
put, no fraud or fraud on the court occurred because of
the Gpnzaga footnote.
*As for Ms. Gokool’s second argument, she asserted
in her Rule 60 motion that the University had
committed fraud on the court by describing* her
complaint’s fraud cause of action as “.merely allegfing]
that holds were'placed'oh [her] student account; and,
at most, [University] employees were confused' or
misinformed . about swhat the holds, meant, why they
were placed oil the account, and !how to4 remove
them.’’(id. at^i83). MsVGokool claims that her fraud
allegation was based on" theT employee’s intentional
acts rather than any confusion or miscomrnunicatio'n.
The University’s point’ with reg&td to the fraud
allegation, however, Was that’ Ms.' Gokooi had not
plausibly alleged that the employees had acted
intentionally: rather' the '"evidence at-most showed
their ’ confusion or* misinformation. To survive a
motion to dismiss, d’Complaint Unust include “enough
facts to state a claim'to relief that is plausible on its
’face.”*Bill MtrCorpi v. Twdmbly, 550 U.S.' 544, 570
t (2007). Moreover, to show fraud;' a plaintiff must prove
that the defendant knew that'his statements were
false or acted with reckless disregard for their truth.
See1 Bowman v. Presley, 212 P.3d 1210, 1218 (Okla
2009).’ Thus; it was entirely appropriate for the
university to contend, both before .the district court
and on appeal, that Ms. Gokooi had not plausibly
alleged that its employees knew any information they
had given her was false.'
5a

Ms. Gokool’s motion asking the district court’s judge
to recuse himself put forward essentially the same
arguments as her Rule 60 motion, only couched in
terms of the district court’s acceptance of the
University’s argument demonstrating* partiality
toward the University. Just as the University
committed no wrongdoing in its Gonzaga and fraud
arguments, neither did the district court act with]
partiality toward the University, or the appearance of
partiality, by finding merit in those arguments. Cf:
Frates v. Weinshienk, 882 F.2d 1502, 1504-05 (10th
Cir. 1989) (finding no appearance of partiality in
bankruptcy judge’s approval of Chapter 11 plan and
statements regarding the likely cash payout for
unsecured creditors). Thus, we affirm the district
court’s denial of Ms. Gokool’s first two motions on the
alternative basis that the arguments raised in these
motions fail on the merits.
After Ms. Gokool filed a motion for reconsideration
and a second motion calling for the district court
judge’s recusal based on the same partiality and fraud
arguments, the district court issued an order directing
her either to withdraw the motions or to show cause
that she .was not in violation of Rule 11(b). Ms.
Gokool’s response to that order detailed the reasons
she believed several documents she filed prior to her
first appeal, plus her first two post-appeal motions,
did not violate Rule 11(b), before finally addressing
the merits of the two motions to which the order
pertained. Concerning the relevant motions, Ms.
Gokool contended that the district court judge knew
he had jurisdiction to consider her Rule 60 motion but
did not do so because of his bias toward the
University, which also committed wrongdoing as she
argued in her Rule 60 motion. Ms. Gokool’s response
6a

was thus premised on the same partiality and fraud
arguments that she had raised in her earlier motions,
which we have found to be without merit.
In accordance with its earlier order, after Ms.
Gokool had responded, the district court struck her
motion for reconsideration, second motion for recusal,
and subsequently filed motion to correct a
typographical error.2 The court observed that after
the first appeal Ms. Gokool “ha[d] repeatedly
without reliable evidence or reason;—accused
Defendants and the Court of committing fraud against
her as a means of re-litigating meritless claims.”
(Appellant’s App. at 412.) The court then concluded
that Ms. Gokool had failed to show that she was not
in violation of Rule 11(b) and stated that it would
“strike any of [her] future filings in this case, unless
she obtains a licensed attorney who certifies that the
motion is non-frivolous.” (Id. at 412—13 (citing EvansCarmichael v. United States, 343 F. App’x 294, 296
(10th Cir. 2009).)
“[IJnjunctions restricting further filings are
appropriate where the litigant’s lengthy and abusive
history is set forth; the court provides guidelines as to
what the litigant may do to obtain its permission to
file an action; and the litigant receives notice and an
opportunity to oppose the court’s order before it is
implemented.” Andrews v. Heaton, 483 F.3d 1070,
1077 (10th Cir. 2007). Each of those elements was met
here. As we have already observed, Ms. Gokool’s first
two post-appeal motions only sought to rehash
2. Ms. Gokool asserts that the district court struck her response
to its order to show cause, but the record reveals that is not the
case.
.
7a

arguments she made in her first appeal. Furthermore,
as the district court noted in its order, Ms. Gokool’s
second two post-appeal motions again sought to
rehash these same issues. The district court thus set
out Ms. Gokool’s history of filing frivolous motions
and, having already given her an opportunity to
demonstrate that she was not in violation of Rule
11(b), the court gave her clear guidelines as to how she
can obtain permission to file future motions. Because
we affirm the district court’s imposition of a fifing
restriction, we likewise affirm its orders striking Ms.
Gokool’s motions filed after the attorney certification.
The University has requested that we “enter an order
awarding damages and costs against [Ms.] Gokool for
taking this frivolous appeal.” (Appellee’s Br. at 20.)
Under Rule 39(a)(2) of the Federal Rules of Appellate
Procedure, costs will generally be taxed against the
appellant if a judgment is affirmed.
We see no reason to depart from this general rule
here, and thus the University may follow the
procedures set forth in Rule 39(d) in order to have
costs taxed against Ms. Gokool. However, we decline
to award other damages against Ms. Gokool at this
time. The district court’s fifing restriction should
provide the University with sufficient protection
against frivolous motions going forward.
III.
Therefore, we AFFIRM the district court’s orders,
HOLD that costs may be taxed against Ms. Gokool,
and DENY the University’s request for other
appellate damages.
Monroe G. McKay Circuit Judge
O’BRIEN, J., concurring and dissenting.
8a

I join the Order and Judgment in all respects except
for the denial of the University’s request for costs and
damages. Fed. R. App. P. 38 provides such a remedy
for frivolous filings (for which this appeal appears to
be a poster child and thereby qualifies for at least
double costs and probably damages as well). Remedial
provisions allowed to wither on the vine do not deter
frivolous filers but do deny other parties just
remedies.
Rule 38 sanctions require a separately filed motion
or notice from the court giving the frivolous filer notice
and a reasonable opportunity to respond. Since the
University’s request comes only from its brief, I would
provide the required notice to Gokool and expect her
response to be filed within 20 days.

Note: Page six of the origiiial opinion was accidentally
omitted in the initial brief and inserted her between
the asterisks at 5a-6a.

9a

Appendix B
.

1

■

4

In the District Court for
the Western District of Oklahoma
Case No. 5:16-cv-00807-R ' Filed 04/23/18
Susan R. Gokool, Plaintiff
v.
Oklahoma City University and Oklahoma City
University School of law,
Defendants
The Court hereby strikes Plaintiffs Motion for
Reconsideration (Doc. 41), Motion for Recusal (Doc.
42), and Motion to Amend/ Correct (Doc. 44). This case
was resolved on the merits and affirmed on appeal.
See Order Granting Motion to Dismiss, Doc. 21; Order
Denying Motion to Alter Judgment, Doc. 27; Gokool v.
Oklahoma City University, et al., No. 17-6131 (10th
Cir. Dec. 8, 2017). Since then, Plaintiff has
repeatedly—without reliable evidence or reason—
accused Defendants and the Court of committing
fraud against her as a means of re-litigating meritless
claims. See Docs. 38—39, 41—42. The Court granted
Plaintiff an opportunity to withdraw her most recent
motions, Docs. 41 and 42, or show cause why her
conduct does not violate Federal Rule of Civil
Procedure I 1(b). See Doc.43. Plaintiff declined to
withdraw the motions and failed to show that she is
entitled to relief. See Doc. 45.
Accordingly, the Motions (Docs. 41, 42, 44) are
hereby STRICKEN. The Court will also strike any of
Plaintiffs future filings in this case, unless she
obtains a licensed attorney who certifies that the
motion is non-frivolous. See Evans-Carmichael v.
United States, 343 F. App’x 294, 296 (10th Cir. 2009).
IT IS SO ORDERED this 23 rd day of April 2018.
10a

r
'V

/s/ David Russell
David Russell
United States District Judge

outiooK.iive.com

<TjSTl
7

©

Appendix G

calO cm ecf notify calO uscourts.gov
Delete all

Mark all as read

Results

All results
ca 1O_cmecf_notify<s>ca10. uscourts.gov
fO
18-6093 Gokool v. Oklahoma C...
T**NOTE TO PUBLIC ACCESS USERS*.--- Judicial....
ca 1O_cmecf_notify<a>ca 1O.uscourts.gov
18-6093 Gokool v. Oklahoma C...
8/27/2018
"•NOTE TO PUBLIC ACCESS USERS-" Judicial...
cal O_cmecf_notify<g3ca10.uscourts.gov
FO
18-6093 Gokool v. Oklahoma C...
s/6/2018
'-'NOTE TO PUBLIC ACCESS USERS**- Judicial...
ca 10_cmecf_notifyO>ca 10.uscourts.gov
1/ 6131 Gokool v. Oklahoma C...
2/12/.?.013
"'NOTE TO PUBLIC ACCESS USERS'*' Judicial...

Appendix D
<Karen_Phillips@calO.uscourts.gov> on behalf of
CA10 Team2@cal0.uscourt
Sent: Tuesday, May 28, 2019 9:55 AM
To: susan gokool
We don’t see a separately filed motion for sanctions on
the docket for this case. You will have to check the
docket for yourself or carefully read the appellee's re­
sponse brief and the court's order and judgment. Any
documents you may need from this case can be ac­
cessed through PACER. We sent the order and judg­
ment as a courtesy copy. Below is a screen shot of the
NDA
you
received
on
4/30/19.
lla

Case 5:16-cv-00807-R Document 22 Filed 12/29/16 Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF OKLAHOMA
SUSAN R. GOKOOL,

)
)
)
)
)
)

Plaintiff,
v.

Case No. CIV-16-807-R

OKLAHOMA CITY UNIVERSITY, )
)
)
)

and
OKLAHOMA CITY UNIVERSITY
SCHOOL OF LAW,
Defendants.

)
)
)
)

JUDGMENT
In accordance with the Order entered this 29th day of December, 2016, Judgment is
hereby entered in favor of Defendant, Oklahoma City University.
SO ORDERED this 29th day of December 2016.

DAVID L. RUSSELL
UNITED STATES DISTRICT JUDGE

1

Case 5:16-cv-00807-R Document21 Filed 12/29/16 Page lot 18

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF OKLAHOMA
SUSAN R. GOKOOL,
Plaintiff,
v.

)
)
)
)
)
)

Case No. CIV-16-807-R

OKLAHOMA CITY UNIVERSITY, )
)
)
)

and
OKLAHOMA CITY UNIVERSITY
SCHOOL OF LAW,
Defendants.

)
)
)
)

ORDER
Before the Court is Defendant Oklahoma City University’s Motion to Dismiss under
Federal Rule of Civil Procedure 12(b)(6) for failure to state a claim upon which relief can
be granted. (Doc. 19). For the reasons that follow, that Motion is granted in its entirety.
I. Background
Plaintiff Susan Gokool, a onetime student at the Oklahoma City University School
of Law (OCU), brings suit against her former law school.1 And though she asserts an array
of claims, her causes of action all implicate a single question: what legal remedy does a
student—when her expulsion for failure to maintain the minimum grade point average has

As an initial matter, it appears that Oklahoma City University School of Law in an improperly named
party to this action. Oklahoma City University and Oklahoma City University School of Law are not
separate entities. OCU Law is merely the school of law operated by OCU. In any event, Ms. Gokool’s
claims against either party fail.

1

Case 5:16-cv-00807-R Document 21 Filed 12/29/16 Page 2 of 18

already been finalized—have against a school when her administrators fail to satisfy her
many post-termination requests? At least under these facts, not any.
Ms. Gokool, who enrolled at OCU in August 2013, received an email around June
30, 2014, that some type of hold had been placed on her student account. Apparently there
are several different holds that a University can place on a student’s account. Depending
on the type of hold, a student’s access to things such as email, transcripts, or other school
information may be limited. Whether this email included any description of the type of
hold on her account is unclear, but a letter of dismissal from Associate Law School Dean
Eric Laity soon followed on July 5, 2014. (Doc. 1, at 1). Ms. Gokool’s dismissal was
apparently the result of a failure to maintain OCU’s required grade point average.
Unable to view her grades on Bluelink (OCU’s student web portal), she contacted
the Registrar’s Office on July 7,2014. Ms. Gokool appears to have spoken with two people
in the Registrar’s Office that day, Kendra Lee and Kelly Monroe. Those conversations
resulted in OCU promising to remove the hold on Ms. Gokool’s account for that day, July
7 (presumably so Ms. Gokool could see the grades that had resulted in her dismissal).
Further, Associate Dean Laity emailed Ms. Gokool to apprise her that any appeal should
be filed by 9 a.m. on July 16, 2014. (Id. at 2). By all accounts, Ms. Gokool timely filed her
appeal. Yet one of her grievances with OCU appears to be that because OCU Law’s Student
Handbook stipulates that “communication is exclusively by email,” her appeal was hurried
and thereby hindered because she did not have access to her email until July 7,2014. (Id.).

2

Case 5:16-cv-00807-R Document 21 Filed 12/29/16 Page 3 of 18

Ms. Gokool received word from Associate Dean Laity on July 23, 2014, that the
University’s Petition and Retention Committee had confirmed her dismissal. Still adamant
about protesting her dismissal, Ms. Gokool requested a transcript from the Registrar,
Shanna Pope, the next day. Pope explained that a Financial Hold prevented access to a
transcript (though to who it is not clear), and directed her to the Financial Aid Department
to resolve it. Financial Holds are typically placed on a student’s account when a student
fails to pay tuition or his or her student loans.
Not long after this, Ms. Gokool contacted OCU Law Dean Valerie Couch on July
29, 2014, to request reconsideration of the Committee’s decision but received no response.
Her later requests to the VP of Student Academic Affairs and the VP of Student Academic
Affairs would also receive no reply. This lack of response forms the basis of much of her
Complaint. Yet this is not to say that OCU entirely ignored her; Ms. Gokool met with the
University Compliance Coordinator, Joey Croslin, in October 2014 to review her
grievances. The meeting appears to have been fruitless, however, because Croslin’s report
from November 3, 2014, showed that Ms. Gokool remained dismissed from OCU.
Part of the reason Ms. Gokool insists her dismissal had not been reversed was
because she continued to have trouble accessing her transcript and other student
information. Some confusion persisted about the type of hold on Ms. Gokool’s account. A
letter from Croslin on November 3, 2014, characterized the hold as an Administrative—
not a Financial—Hold. But the Registrar’s Office, upon denying Gokool’s request for
transcript on December 1, 2014, said the roadblock was a Financial Hold on her account.
After Ms. Gokool learned that a Financial Hold would have been placed by Brian Overling,
3

Case 5:16-cv-00807-R Document 21 Filed 12/29/16 Page 4 of 18

the University’s Student Loan Coordinator, she left him a message. This set of Ms.
Gokool’s allegations is murky, but it appears that Overling called her back immediately to
tell her that a Financial Hold had been mistakenly placed on her account but was now
removed. Ms. Gokool alleges that Overling would later renege on this characterization; an
email from him on January 7, 2015, would explain that the hold originally placed on Ms.
Gokool’s account on June 30, 2014, was not a Financial or Administrative Hold. Instead it
was an “Other” Hold—which should not have prevented her from accessing any
information on her Bluelink account. Regardless, Overlink maintained that the “Other”
Hold was removed on July 23, 2014.
So Ms. Gokool’s situation remained unchanged. She received another letter by the
end of 2014 confirming her dismissal, this time from OCU’s General Counsel. Ms. Gokool
nonetheless made one more request for information around January 21, 2016. This time
she asked Dean Laity and OCU Counsel Casey Petherick for a record of the holds that had
been placed on her account. She received some type of response on March 8, 2016, which
she says was unacceptably late under the Federal Educational Rights and Privacy Act.
Now, challenging everything from her alleged treatment while she was a student to
the manner of her dismissal and the alleged lack of cooperation from OCU that followed,
Ms. Gokool brings claims for (1) breach of implied contract, (2) bad faith, (3) breach of
the duty of good faith and fair dealing, (4) fraud, (5) negligence, (6) conspiracy, (7)
disparate treatment, and (8) unjust enrichment. (Doc. 16, First Amended Complaint).
Defendant OCU has moved to dismiss all claims under Federal Rule of Civil Procedure
12(b)(6) for failure to state a claim.
4

Case 5:16-cv-00807-R Document 21 Filed 12/29/16 Page 5 of 18

II. Standard of Review
“Under Federal Rule of Civil Procedure 8(a)(2), a pleading must contain a ‘short
and plain statement of the claim showing that the pleader is entitled to relief.’” Ashcroft v.
Iqbal, 556 U.S. 662, 677-78 (2009). “The pleading standard Rule 8 announces does not
require ‘detailed factual allegations,’ but it demands more than an unadorned, thedefendant-unlawfully-harmed-me accusation.” Id. at 678 (quoting Bell Atlantic Corp. v.
Twombly, 550 U.S. 544, 555 (2007)). To survive a motion to dismiss, a pleading must offer
more than “labels and conclusions” and “a formulaic recitation of the elements of a cause
of action.” Twombly, 550 U.S. at 555. There must be “sufficient factual matter, [which if]
accepted as true .. . state[s] a claim to relief that is plausible on its face.” Iqbal, 556 U.S.
at 678 (quoting Twombly, 550 U.S. at 570). A plausible claim is one that “pleads factual
content that allows the court to draw the reasonable inference that the defendant is liable
for the misconduct alleged.” Id. A plaintiff must “nudge[] [her] claims across the line from
conceivable to plausible ... .” Twombly, 550 U.S. at 570. Further, the Court “must accept
all the well-pleaded allegations of the complaint. . . and must construe them in the light
most favorable to the [non-moving party].” Thomas v. Kaven, 765 F.3d 1183, 1190 (10th
Cir. 2014).
III. Claims for Breach of Implied Contract, Bad Faith, and Breach of Duty of Good
Faith and Fair Dealing
The Court first addresses Ms. Gokool’s contract-based claims. Essentially, Ms.
Gokool argues that OCU breached a contract with her when it mischaracterized the type of
hold on her account, inadequately responded to her requests following her dismissal, and

5

Case 5:16-cv-00807-R Document 21 Filed 12/29/16 Page 6 of 18

created less than an ideal learning environment while she was still a student. Specifically,
she asserts claims for breach of implied contract, bad faith, and breach of the duty of good
faith and fair dealing. As an initial matter, these latter two claims are one in the same: a
claim for bad faith is simply a remedy “provided for breach of the implied duty to deal
fairly and in good faith in the performance of a contract.” Hitch Enterprises, Inc. v.
Cimarex Energy Co., 859 F.Supp.2d 1249, 1263 (W.D. Okla. 2012) (citation omitted).
Further, the Court is able to take up these three claims concurrently on OCU’s motion to
dismiss because of the claims’ one overarching feature: they all require Ms. Gokool to
prove she had a contract with OCU under Oklahoma law.2
This she cannot do. If there was a contract between Ms. Gokool and OCU, it arose
upon her enrollment in August 2013. See Mason v. State ex rel Bd. of Regents ofUniv. of
Okla., 23 P.3d 964, 970 (Okla. Civ. App. 2000) (noting that “the implied contract [between
a student and university] arises upon enrollment”). This contract then would have
remained—but only until Ms. Gokool was expelled when she received a letter of dismissal
from Dean Laity for failure to meet the required grade point average. Id. (“Once [plaintiff
student] was expelled, he was no longer party to any contract with [the University]”). As a

2 Oklahoma statute defines an implied contract as simply a contract whose “existence and terms of. . . are
manifested by conduct.” Tit. 15, § 15133. Further, the duty of good faith and fair dealing is an implied
covenant that applies “to all contracting parties, that neither party, because of the purposes of the contract,
will act to injure the parties’ reasonable expectations nor impair the rights of interests of the other to receive
the benefits flowing from their contractual relationship.'’’ First Nat’l Bank & Trust ofVinita v. Kissee, 859
P.2d 502, 509 (Okla. 1993) (emphasis added).
Further, as a “federal court sitting in diversity, [this Court] must apply the substantive law of the forum
state,” in this case Oklahoma. Otis Elevator Co. v. Midland Red Oak Realty Inc., 483 F.3d 1095, 1101 (10th
Cir. 2007).

6

Case 5:16-cv-00807-R Document 21 Filed 12/29/16 Page 7 of 18

result, any of OCU’s alleged conduct that occurred after Ms. Gokool received the dismissal
letter on July 5, 2014, cannot form the basis of any claim for breach of implied contract or
breach of the duty of good faith and fair dealing. In other words, as a matter of law Ms.
Gokool’s allegations of OCU’s behavior following her dismissal cannot form the basis of
her actions in contract.
Though that essentially saps most of Ms. Gokool’s allegations, she nonetheless
argues that many of her allegations occurred while she was still enrolled at OCU. These
allegations though are sparse, and consist only of an alleged failure of Dean Laity to
respond to an email requesting academic assistance in April 2014 and a professor treating
her disrespectfully when she would ask questions in. (Doc. 16,

39).

Even assuming there were some authority holding a student expelled for failure to
meet the required academic standards could then bring a suit rooted in contract against her
former university for actions taken after that expulsion, Ms. Gokool would still face
another hurdle: she cannot point to any specific contract on which to sue. Granted, she puts
forth several candidates: her acceptance letter from OCU in which the University stated
that her legal education “will be enhanced by positive interaction with the faculty and
administration,” the provision in the OCU Faculty Handbook stating that teachers are “to
communicate knowledge with a positive impact on students ... encouraging their questions
and is considerate and fair in all dealings with students,” and the fact that OCU’s Title IX
policy states that the compliance coordinator “will commence a thorough, fair and impartial
investigation.” (Doc. 16, at 5-7).

7

Case 5:16-cv-00807-R Document 21 Filed 12/29/16 Page 8 of 18

The issue then, easy to state and not much harder to answer, is whether the Faculty
Handbook, acceptance letter, and Title IX policy constitute a contract. It appears not.
Granted, the Oklahoma Court of Civil Appeals has acknowledged there is “some
authority which suggests that an educational institution’s brochures, policy manuals and
other advertisements may form the basis of a legally cognizable contractual relationship
between the institution and its students.” Bittle v. Okla. City Univ., 6 P.3d 509, 514 (Okla.
Civ. App. 2000). Yet this is not to say that a university handbook, acceptance letter, or the
like constitutes a de facto contract. Rather, Bittle was clear in that the plaintiff, in order to
prevail on a breach of contract claim, must point to “some specific, identifiable agreement
for an educational institution’s provision of particular services to its students and an
arguable breach of that specific agreement.” Id. (emphasis added).
And that is precisely why Ms. Gokool’s contract claims fail: she can identify no
specific service that OCU agreed to provide her but failed to. Instead, she relies only on
broad, policy-driven statements representing the University’s expectations of its staff and
its commitment to complying with federal civil rights legislation. Courts consistently hold
those type of University declarations and announcements are not contratcts. See, e.g.,
Tibbetts v. Yale Corp., 47 Fed.Appx. 648, 656 (4th Cir. 2002) (finding that student
handbook provision—stating that Yale had an “overriding commitment to free
expression”—did not create a contract but was “merely a university policy promoting free
expression”); see also Gerald v. Locksley, 785 F.Supp. 2d 1074, 1142 (D.N.M. 2011)
(“Even though the Student Handbook sets out a general framework of policies, we are not
persuaded that the language contractually obligates [the University] to conduct any specific
8

Case 5:16-cv-00807-R Document 21 Filed 12/29/16 Page 9 of 18

type of investigation, to provide support services, or to impose specific discipline.”); see
also Sanchez v. The New Mexican, 738 P.2d 1321, 1324 (N.M. 1987) (affirming the
dismissal of an implied contract claim on grounds that “the handbook lacked specific
contractual terms which might evidence the intent to form a contract ... [insofar as the]
language is of a non-promissory nature and merely a declaration of defendant's general
approach); see also Goodman v. President & Trustees ofBowdoin Coll., 135 F.Supp.2d 40,
56 (D. Me. 2001) (holding that handbook language that “[discrimination ... has no place
in an intellectual community ... [and] [s]uch practices violate both the ideals of the College
and its Social Code and are subject to appropriate disciplinary sanctions” does not indicate
a contractual obligation by the college to refrain from discrimination).
Simply put, the fact that Ms. Gokool does not believe OCU provided the type of
ideal learning environment promised does not confer upon her some action in contract. To
hold otherwise would seem to undermine the Oklahoma Court of Civil Appeal’s reminder
in Bittle that—if at the very least for purposes of granting “educational institutions broad
discretion in matters purely academic”—Oklahoma law “recognizes no cause of action for
educational malpractice, either in tort or contract, by a student against a private educational
institution asserting inadequate or improper instruction.” 6 P.3d at 514. And to the extent
that Ms. Gokool seeks to assert such a claim under the guise of implied contract or the like,
that maneuver fails to help her survive a motion to dismiss. Ross v. Creighton Univ., 957
F.2d 410, 416 (7th Cir. 1992) (noting that a student is “bar[red] [from] any attempt to
repackage an educational malpractice claim as a contract claim”).

9

Case 5:16-cv-00807-R Document 21 Filed 12/29/16 Page 10 of 18

Nonetheless, relying on a case applying foreign law, Ms. Gokool urges the Court to
find a contract in light of the Washington Supreme Court’s observation in Doe v. Gonzaga
Univ. that, in a suit by a student against the university for breach of implied contract, the
jury was instructed that “you may find implied contract by inference or implication from
circumstances which, according to the ordinary course of dealing and people’s common
understanding, shows a mutual intent on the part of the parties to contract with each other.”
24 P.3d 390, 402 (Wash. 2001). Aside from the fact that the Washington Supreme Court’s
judgment was reversed on appeal to the U.S. Supreme Court,3 Gonzaga seems to only
undermine, not bolster, Ms. Gokool’s claims. If the Washington Supreme Court’s Gonzaga
opinion suggests that an implied contract is founded upon the mutual intent of the parties
to contract, the exact opposite is true here. The OCU Staff Handbook and OCU Student
handbook expressly state that nothing contained within the documents is or constitutes a
contract.4
Given the fact that Ms. Gokool lost her ability to sue on contract when she was
expelled, not to mention that she can point to no specific contract that OCU breached, the
Court must dismiss her claims for breach of implied contract and the duty of good faith
and fair dealing for failure to state a claim.
IV. The Fraud Claim

3 See Gonzaga Univ. v. Doe, 536 U.S. 273, 292 (2002).
4 Courts are permitted to rely on exhibits such as these, and attachment of these exhibits does not convert
a Motion to Dismiss into one for summary judgment. See GFF Corp. v. Associated Wholesale Grocers,
Inc., 130 F.3d 1381, 1384 (10th Cir. 1997) (“[I]f aplaintiff does not incorporate by reference or attach a
document to its complaint, but the document is referred to in the complaint and is central to the plaintiffs
claim, a defendant may submit an indisputably authentic copy to the court to be considered on a motion to
dismiss.”)

10

Case 5:16-cv-00807-R Document 21 Filed 12/29/16 Page 11 of 18

Ms. Gokool also asserts a claim for fraud based on OCU administrators’
“mischaracterization” of the type of hold on her account. This was all done intentionally,
she insists, with the purpose of delaying her appeal over her dismissal. To prevail, she must
prove: “(1) That defendant made a material misrepresentation; (2) that it was false; (3) that
[the defendant] made it when he knew it was false, or made it recklessly, without any
knowledge of its truth and as a positive assertion; (4) that [the defendant] made it with the
intention that it should be acted upon by plaintiff; (5) that plaintiff acted in reliance upon
it; and (6) that [s]he thereby suffered injury.” State ex rel. Southwestern Bell Tel. Co. v.
Brown, 519 P.2d 491, 495 (Okla. 1974) (internal quotes omitted). Further, at this stage, a
“[fjailure to adequately allege any one of the [four] elements is fatal to the fraud claim.”
Tal v. Hogan, 453 F.3d 1244, 1263 (10th Cir. 2006). And as Iqbal instructs lower courts,
conclusory allegations will not suffice, meaning Ms. Gokool must plead “sufficient factual
matter, [which if] accepted as true ... statefs] a claim to relief that is plausible on its face.”
Iqbal, 556 U.S. at 678. Further, that pleading standard is only heightened for allegations of
fraud under Federal Rule of Civil Procedure 9(b) (“In alleging fraud ... a party must state
with particularity the circumstances constituting fraud or mistake.”). According to the
Tenth Circuit, this means “set[ting] forth the time, place and contents of the false
representation, the identity of the party making the false statements and the consequences
thereof.” Koch v. Koch Indus., 203 F.3d 1202, 1236 (10th Cir. 2000) (internal quotations
omitted).
Ms. Gokool’s fraud claim fails because she has failed to “nudge[] [her] claims
across the line from conceivable to plausible ...” Twombly, 550 U.S. at 570. Much of this
11

Case 5:16-cv-00807-R Document 21 Filed 12/29/16 Page 12 of 18

is due to the fact that her fraud claim is at odds with itself. As best the Court can tell, the
gist of Ms. Gokool’s fraud claim is that several OCU administrators all characterized the
type of hold on Ms. Gokool’s account differently. By describing it at various times as a
Financial Hold, Administrative Hold, or “Other” type of hold, Gokool alleges these
administrators sought to delay her appeal and see her dismissal from OCU affirmed. That
theory, though, does not make a lot of sense. Gokool says she had 14 days to appeal her
dismissal from OCU, and that the appeal-window started on July 1, 2014. She appears to
have been given until July 16, 2014 to file an appeal, which she did. If her appeal-window
closed on July 16,2014, then it is unclear how any statements made by OCU administrators
after that could have been made with the intention to delay her appeal—specifically in light
of the fact that Associate Dean Laity informed her on July 23, 2014 that the Petition and
Retention Committee had already confirmed her dismissal.
So at least for purposes of her fraud claim, that leaves only those statements made
before her dismissal was confirmed. First, there was the June 30, 2014, email from OCU
that a hold that been placed on her account. Then there was a July 5, 2014, letter of
dismissal from Dean Laity. By all accounts, these were true statements; nothing about them
rises to the level of fraudulent. And as for Monroe’s statement to Gokool on July 7, 2014,
that her hold would be removed but only through the day (presumably to allow Ms. Gokool
to access her account to obtain her desired information), that in fact happened. Again, not
false. That leaves one more alleged “statement” by OCU: her student account’s display on
July 7, 2014, that there was an Administrative Hold in place on her account. Once more,
this hardly states a claim for fraud. Aside from failing to identify who was responsible for
12

Case 5:16-cv-00807-R Document 21 Filed 12/29/16 Page 13 of 18

allegedly misidentifying the hold as an administrative hold and how she relied upon that
statement to her detriment, her claim for fraud is merely cloaked with conclusory
allegations. According to Ms. Gokool, Defendants “intentionally delayed” her appeal,
acted “in a manner to conceal and deceive,” were “untruthful,” and “intentionally
sabotaged [her] appeal process.” For one, “broad claims against numerous defendants
without identifying specific actions of specific individuals at specific times” will not
suffice to survive a motion to dismiss. U.S. ex rel. Hebert v. Dizney, 295 F. App'x 717, 722
(5th Cir. 2008). Further, these are the types of conclusory allegations which Iqbal holds
will not give rise to a claim for relief. Ms. Gokool has provided absolutely nothing in her
Complaint that suggests how or why any OCU administrators would lie about the type of
hold on her account. Nor does she show how their alleged mischaracterization of the type
of hold on her account would somehow lead the Petition and Review Committee to renege
on the University’s decision to dismiss her for failure to maintain the required grade point
average. “Although [Ms. Gokool’s] filings provide several cursory allegations, [s]he offers
no facts demonstrating that [OCU administrators] knew [their] statements were false, or
that [they] acted with the intent to deceive. Valente v. Univ. ofDayton, 438 F. App'x 381,
388 (6th Cir. 2011). Her fraud claim is therefore dismissed.
V. The Negligence Claim
Ms. Gokool also asserts a claim for negligence against OCU, pointing to the
University’s alleged FERPA violations, alteration of her grades, and placement of
unwarranted holds on her account. Her claim ends, however, with her inability to point to
any specific duty on the part of OCU towards her, as “[t]he threshold question in any action
13

Case 5:16-cv-00807-R Document 21 Filed 12/29/16 Page 14 of 18

for negligence is the existence of a duty.” Trinity Baptist Church v. Brotherhood Mutual
Ins. Servs., LLC, 341 P.3d 75, 82 (Okla. 2014). Further, “[t]he existence of a legal duty is
a question of law for the court.” Id.
The question Ms. Gokool is unable to satisfactorily answer is what duty was owed
by OCU, if any, and how it was breached. Citing no authority, she contends that OCU
offered her a duty of ordinary care in handling and maintaining her school records. Once
more, without acknowledging as much, Ms. Gokool is essentially arguing that a University
owes a former student, who was properly expelled for failure to achieve the minimum grade
point average, the duty to maintain academic records and to promptly respond to student
inquiries seeking to review those records.
As the basis for her FERPA claim, Ms. Gokool appears to be relying on 20 U.S.C.
§ 1232g(b)(2), which “requires educational institutions receiving federal funds to allow
students access to their ‘educational records’ within 45 days of such a request.” Mostaghim
v. Fashion Inst, of Tech., 2001 WL 1537545, at *3 (S.D.N.Y. Dec. 3, 2001) Yet even
assuming that OCU failed to follow FERPA by promptly returning an expelled student’s
inquiries about being readmitted into the program, that still would not be sufficient to state
a claim for negligence: “FERPA does not support a claim of negligence per se because it
does not define a standard of care.” Atria v. Vanderbilt Univ., 142 F. App'x 246, 253 (6th
Cir. 2005). The Supreme Court itself has acknowledged that FERPA is more concerned
with how institutions operate on a broad policy level rather than if the individual requests
of a particular plaintiff have been met. See Gonzaga University v. Doe, 536 U.S. 273, 288,
122 S.Ct. 2268, 2278 (2002) (“FERPA's nondisclosure provisions ... speak only in terms
14

Case 5:16-cv-00807-R Document 21 Filed 12/29/16 Page 15 of 18

of institutional policy and practice, not individual instances of disclosure.... [The
nondisclosure requirements] are not concerned with whether the needs of any particular
person have been satisfied....”). In other words, “FERPA does not create an implied private
right of action.” Frazier v. Fairhaven School Committee, 276 F.3d 52, 69 (1st Cir. 2002).
And in a similar vein, Ms. Gokool can point to no statute obligating a private
university such as OCU to diligently maintain her records and field an expelled student’s
requests in a timely manner. Cf. Porche v. Oden, 2009 WL 500622, at *6 (N.D. Ill. Feb.
27, 2009) (“A duty to preserve documents can also arise by statute. Under the Illinois State
Records Act, a state university' is not only required to maintain records and documents but
also to have in place a records management program which explains the systematic
management of all records from their creation to their disposition.”).
As for her allegation that the University was somehow negligent in changing one of
her grades from a C+ to a C, awarding her too low of a grade in another class, and placing
a hold on her student account, these seem to be precisely the types of allegations that both
the Oklahoma and Supreme Court have construed as educational malpractice claims. The
claims are not far off the mark from one for “inadequate or improper instruction.” Bittle, 6
P.3d at 514. To hold OCU liable for these types of actions would miss the larger point:
“established public policy . . . accords educational institutions broad discretion in matters
purely academic, particularly in the evaluation of student performance, and directs judicial
non-interference in decisions within that discretion.” Id. In fact, the Supreme Court has
specifically noted that a “determination to dismiss a student for academic reasons” and the
“decision of an individual professor as to the proper grade for a student in course” are the
15

Case 5:16-cv-00807-R Document 21 Filed 12/29/16 Page 16 of 18

very types of questions that do not lend themselves to “the procedural tools of judicial or
administrative decision-making.” Bd. of Curators of the Univ. of Mo. V. Horowitz, 435
U.S. 78, 90 (1978).
In short, Ms. Gokool has pointed to no legal duty owed by OCU which would
support a negligence claim. Because she has failed to state a claim, dismissal is proper.
VI. Disparate Treatment Claim
With her third to last claim, Ms. Gokool asserts a claim for disparate treatment under
Title VI of the Civil Rights Act of 1964. To prevail, she “must allege allege (1) that there
is racial or national origin discrimination and (2) the entity engaging in discrimination is
receiving federal financial assistance.” Quarrie v. N.M. Inst, ofMining & Tech., 2014 WL
11456597 at *2 (D.N.M. Feb. 25, 2014) (relying on 42 U.S.C. § 2000d). While OCU
receives federal financial assistance, Ms. Gokool has not alleged facts which give rise to a
plausible claim to relief for racial or national origin discrimination under Title VI.
“A motion to dismiss a Title VI claim is appropriate where a plaintiff fails to allege
any evidence to indicate racial bias motivated a defendant’s action and the allegations made
support a finding that alleged bias was not racial in nature.” Joseph v. Boise State Univ.,
998 F.Supp. 2d 928, 944 (D. Idaho 2014). Gokool pleads that she is an older, female,
minority student. Stripping the complaint of its legal conclusions, there is nothing that
suggests that OCU was acting on the basis of some protected trait in its alleged treatment
of Gokool. Nowhere in her Complaint does she allege that OCU referenced her race at any
point while the hold was on her student account. Nor does Plaintiff recite any facts from
which discriminatory intent or motivation could be inferred. And as for her complaints
16

Case 5:16-cv-00807-R Document 21 Filed 12/29/16 Page 17 of 18

about administrators failing to promptly respond to phone and email messages, “[t]he court
simply cannot infer that failure to respond to her questions promptly was due to anything
other than a misunderstanding.” Joseph, 998 F.Supp.2d at 945. If anything, her alleged
communications with OCU, devoid as they are of details suggesting racial bias, “convince
the court that race was not a motivating factor behind the actions or inactions of . . .
administrators.” Id. Ms. Gokool’s disparate treatment claim is therefore dismissed for
failure to state a claim.
VII. Unjust Enrichment Claim
Ms. Gokool also asserts a claim for unjust enrichment based on OCU’s “enjoy[ing]
the benefits of. . . Gokool’s tuition while Gokool had to accept a financial loss due to an
improper dismissal when Defendants placed Gokool at a disadvantage by delaying her
appeal with an unwarranted HOLD.” (Doc. 16, at 14). It too fails.
Unjust enrichment is defined as “(1) the unjust (2) retention of (3) a benefit received
(4) at the expense of another.” Okla. Dept, of Securities ex rel. Faught v. Blair, 231 P.3d
645, 648 (Okla. 2010). For Ms. Gokool to recover on a theory of unjust enrichment, she
must prove that there was some enrichment to another coupled with a resulting injustice.
N.C. CorffP ’ship, Ltd. V. OXYUSA, Inc., 929 P.2d 288, 295 (Okla. Civ. App. 1996).
While it is not clear how OCU was unjustly enriched by her dismissal, Ms. Gokool
appears to be arguing that OCU should not be permitted to retain the tuition paid by her
given the fact she was improperly dismissed. She has not plead any facts however showing
that OCU retained her tuition payments for semesters after she had been expelled.
Allegations that her expulsion was improper, without any facts suggesting why, will not
17

Case 5:16-cv-00807-R Document 21 Filed 12/29/16 Page 18 of 18

satisfy the federal pleading requirements. Nothing in her Complaint to “nudge[s] [her]
claims across the line from conceivable to plausible

,?’ Twombly, 550 U.S. at 570. Her

claim is therefore dismissed.
VIII. Conspiracy
Finally, Ms. Gokool’s conspiracy claim is easily disposed of. She alleges that OCU
administrators conspired to mislead her about the hold on her account, deny her
clarification on her grades, and fail to maintain records about what sort of holds had been
placed on her account. These allegations alone will not suffice to survive a motion to
dismiss, since mere allegations of a “[a] conspiracy between two or more persons to injure
another is not enough.” Tanique, Inc. v. State ex rel. Oklahoma Bureau of Narcotics &
Dangerous Drugs, 99 P.3d 1209, 1218 (Okla. Civ. App. 2004). Rather, Ms. Gokool needs
to state a claim that the conspiracy was founded on an “an underlying unlawful act.” Id.
Because there has been no underlying unlawful act, her allegations of conspiracy call for
dismissal.
Conclusion
In sum, Ms. Gokool has failed to state any claim upon which relief can be granted.
Pursuant to Federal Rule of Civil Procedure 12(b)(6), the Court dismisses her Complaint.
IT IS SO ORDERED this 29th day of December 2016.

DAVID L. RUSSELL
UNITED STATES DISTRICT JUDGE
18

